No.
In the

Supreme Court of the United States
THOMAS D. KERR,
Petitioner,
v.
HEIDI L. KERR,
Respondent.

On Petition for Writ of Certiorari to the
Supreme Court to the State of Montana
PETITION FOR WRIT OF CERTIORARI

A. Blair Dunn, Esq.
Counsel of Record
WESTERN AGRICULTURE,
RESOURCE AND BUSINESS
ADVOCATES, LLP
400 Gold Ave, SW, Suite 1000
Albuquerque, NM 87102
(505) 750-3060
ABDunn@ABlairDunn-Esq.com
November 3, 2020

i

QUESTION PRESENTED
It has long been well settled that parents enjoy a fundamental liberty of rights
of childrearing, procreation, and education. See Pierce v. Society of Sisters, 268 U.S.
510, 45 S.Ct. 571, 69 L.Ed. 1070 (1925). Moreover, this Court has recently clarified
the application of laws to favor one parent over the other on the basis of gender is
unconstitutionally permissible. See Sessions v. Morales-Santana, 137 S. Ct. 1678,
1690 (2017).1
Thus, the simple question presented is:
1. Can the Montana Supreme Court ignore the unjustifiable and inexplicable
decisions of the lower court discriminate against a father for no other
discernable reason than his gender without running afoul of the clear
protections of the United States Constitution’s guarantees to due process
and equal protection or the decisions of the Court applying those
protections to parenting?

Prescribing one rule for mothers, another for fathers, § 1409 is of the same genre as the classifications
we declared unconstitutional in Reed, Frontiero, Wiesenfeld, Goldfarb, and Westcott. As in those cases,
heightened scrutiny is in order. Sessions v. Morales-Santana, 137 S. Ct. 1678, 1690 (2017)
1

ii

PARTIES TO THE PROCEEDING
Petitioner is Thomas Kerr. He was the Respondent in the District Court
divorce proceeding and the pro se Appellant before the Supreme Court of Montana.
Respondent is Heidi Kerr. She was the Petitioner in the District Court divorce
proceeding and the Appellee before the Supreme Court of Montana.
STATEMENT OF RELATED CASES
• Kerr v. Kerr, No. DR-17-00886, Montana Fourth Judicial District Court,
Missoula County, Judgment entered April 18, 2019.
• Kerr v. Kerr, No. DA 19-0276, 2020 MT 158N, In the Supreme Court of the
State of Montana, Judgment entered June 16, 2020.

iii

TABLE OF CONTENTS
TABLE OF AUTHORITIES ................................................................................... v
PETITION FOR WRIT OF CERTIORARI ............................................................ 1
OPINIONS BELOW ................................................................................................ 2
JURISDICTION....................................................................................................... 2
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED .............. 3
STATEMENT OF THE CASE ................................................................................ 3
A. The Underlying Divorce Proceeding ............................................................. 3
B. The Montana Supreme Court Decision ......................................................... 7
REASONS FOR GRANTING THE PETITION ..................................................... 7
I.

THE APPLICATION OF FAVORABLE FACTORS ON
THE BASIS OF GENDER SERVED TO INCORRECTLY
AVOID A CRITICAL AND FUNDAMENTAL QUESTION
REGARDING DUE PROCESS ASSOCIATED TO
PARENTING AND EQUAL PROTECTION AFFORDED
TO A FIT PARENT ................................................................................. 8

CONCLUSION ...................................................................................................... 12

iv

TABLE OF AUTHORITIES

Cases
Nevada Dept. of Human Resources v. Hibbs, 538 U.S. 721, 123 S.Ct. 1972,
155 L.Ed.2d 953 (2003). ..........................................................................................10
Obergefell v. Hodges, 576 U.S. 644 (2015).........................................................8, 11
Pierce v. Socy. of the Sisters of the Holy Names of Jesus and Mary,
268 U.S. 510, (1925). .................................................................................................9
Sessions v. Morales-Santana, 137 S. Ct. 1678 (2017).........................................2, 10
Zablocki v. Redhail, 434 U.S. 374, 98 S.Ct. 673 (1978) .........................................11
Statutes
U.S. Constitution – Amendment 14:.......................................................................3
U.S. Constitution, Article III, Section 1: ................................................................3

v

PETITION FOR WRIT OF CERTIORARI
“This appeal presents no constitutional issues, no issues of first impression,
and does not establish new precedent or modify existing precedent.” (App. A 10).
Such a statement appearing to be simple and innocuous, could simply not be more
inapposite of the truth of this situation. While at the same time, such a statement
could not be more consistent with one of the greatest failings and most troubling
constitutional crisis occurring on a nationwide basis every day in our family court
system. Putting aside the fact that almost all divorces are messy in some sense of the
word and that this case presents one of the most egregious examples inequal
treatment before the law or gender bias in our court systems, the simple fact that
should be readily apparent to the Court is that system is broken when a state high
court can be presented with such a clear example and think nothing of the harms
done to one party’s fundamental liberties. Unfortunately, Petitioner’s circumstances
and loss of liberty presented here are not rare, they are commonplace, often times
following gender lines, but in almost every case trampling the rights of one parent
in favor of the other.
Thus Montana Supreme Court’s decision to ignore the constitutional injuries
visited upon Petitioner without justifiable cause or concern for his Due Process rights
serves to present this Court the opportunity to correct a great wrong harming not just
Petitioner’s children by depriving them of the meaningful involvement of their father
1

in their lives by of all of the children of this nation that have suffered the deprivation
of having the equal opportunity to be parented by both of the parents that possess
the fitness to provide that to them.
This Court should grant review to 1) reaffirm the equal right to parent of both
parents regardless of gender, Sessions v. Morales-Santana, 137 S. Ct. 1678 at 16923; and 2) restore the protections of the Due Process to every parent that is not
prohibited by some statutorily recognized limitation to be an equal parent in their
child’s life.
OPINIONS BELOW
The Montana Supreme Court’s unpublished opinion is reported at 464 P.3d
1012. Appendix B. (Memorandum Opinion, June 16, 2020) The unpublished Order
of District Court of the Fourth Judicial District, In and For the County of Missoula,
Cause No. DR-17-886 dated April 18, 2019. Appendix A.
JURISDICTION
The decision of the Supreme Court of the State of Montana for which
certiorari is sought was entered on June 16, 2020. Pet.App.1a. This Court has
jurisdiction under 28 U.S.C. § 1257. This Petition for Writ of Certiorari is timely
filed pursuant to the Thursday, March 19, 2020 United States Supreme Court Order
589 U.S.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S. Constitution, Article III, Section 1:
The Judicial power of the United States shall be vested in one Supreme
Court, and in such inferior Courts as the Congress may from time to
time ordain and establish…
U.S. Constitution – Amendment 14:
1. All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.
STATEMENT OF THE CASE
A. The Underlying Divorce Proceeding
Respondent filed for divorce in December 2017 and after 1 ½ years of
mediation, hearings, multiple court filings, the 4th Judicial District Court in Missoula
County filed a judgement on April 18th, 2019.
As was noted above, divorce proceedings are typically messy affairs that
typically result in an outcome where one party wins and the other loses the
description of this case is no different and is largely illustrative of the assumed
3

reasons that why, with regard to parenting that such an inequal and unconstitutional
outcome was reached and then later ratified by the Montana Supreme Court without
any substantive constitutional review.
The descent of this case down the rabbit hole to a bizarre realm that is all to
common in domestic relations law began with the division of marital assets which
was bizarre in that substantially all marital cash assets were allocated to Respondent
and substantially all marital debt was allocated to Petitioner without justification.
The District Court Judge allocated assets to Respondent that she didn’t even ask for.
For example, the parties agreed to split the marital home 50/50, but the District Judge
refused the agreement and allocated to Respondent mother seventy percent of the
value of the home. In addition, full proceeds of a vacation home sale were allocated
to Respondent that Petitioner had purchased before the marriage and never
contributed or maintained by the marriage.
Again, a disparate division of assets isn’t that unusual if there is a disparity of
earnings capacity, but it is usually offset with a reduced level of child support and
maintenance, which was not in this case. The total of child support and maintenance
awarded exceeded Petitioner’s salary at the time and the sum of all court order
obligations exceed the higher imputed salary that was imposed to Petitioner. In
essence, the District Court essentially manufactured as situation wherein Petitioner
couldn’t pay for his normal living expenses and was therefore prohibited from
4

legitimately achieving an equal opportunity to be a parent to the children. Likewise
the lopsided vendetta of the District Court continued with regard to the application
allocation or share of children’s healthcare costs, requiring Petitioner already at a
deficit to be responsible for one hundred percent of the children’s health insurance
and eighty-two percent of all out of pocket child healthcare costs. Moreover, child
credit tax deductions were awarded to Respondent every year with no alternating
years and Petitioner was required to pay all of Respondent’s legal fees.
In one of most clear-cut examples of bias by the District Court, that appears
to have been purposefully overlooked by the Montana Supreme Court, the Petitioner
filed a pre-judgement motion to inform the District Court of various financial
conflicts as well as to note the Respondent’s ongoing harassment and abuse citing
12 examples. Not only did the District Court not address the issues, the District Court
had the motion stricken from the record and claimed the Petitioner was actually
harassing the Respondent by filing the motion and trying to portray her in a bad
light.
Lastly, oral testimony and evidence was presented during the case by the
Petitioner that there was a substantial amount of physical spousal abuse by the
Respondent during the marriage. The District Court and Montana Supreme Court
wholesale dismissed the issue, apparently because the abuse came from a woman
against a man, further correlating a gender bias towards one parent of the
5

children. Both Courts dismissed written testimony by the Respondent’s own family
members which expressed their concerns over her lifelong struggles with anger. The
Petitioner’s goal regarding this issue was not to declare mother unfit, nor to take the
children away from their mother, but to simply ask for mandated anger management
classes or targeted therapy to protect the children. Yet the District Court even
specifically opined that anger management classes are not necessary.
Despite the lopsided and punitive financial aspects of the judgement and the
refusal to acknowledge domestic abuse, the impetus animating the current petitioner
is not the disparate treatment of a spouse in an divorce proceeding but what animates
Petitioner call out for the mercy of this Court and what should animate this Court is
the disparate treatment of a fit parent in the District Courts award of custody and
parenting plan despite clear undisputed evidence that both parents were equally
involved in parenting the children. Shockingly, the District Court did not just largely
remove father from the children’s lives in terms of timesharing and input into
decision making regarding the rearing of the children, District Court allowed the
children to be removed from their home in Montana, where for four years they were
deeply embedded in the Missoula community with friends, sports, schooling and a
strong parental support group to another state. The District Court’s decision, thus,
inexplicably and regulates a parent out of any meaningful opportunity to be an equal
parent to his children trampling his rights to equal protection and due process under
6

the Fourteenth Amendment to the United States Constitution.
B. The Montana Supreme Court Decision
The Montana Supreme Court affirmed. Pet.App.1a-10a. The Decision
affirming the District Court’s Order though presented with many questions
implicating a well-known fundamental liberty, engaged in no analysis or
consideration of the constitutional issues presented to them by such a disparate
decision regarding child custody and parenting, instead applying Montana state law
MCA § 40-4-212(1), in a discriminatory fashion that favors one parent on basis of
attributes associated to that gender instead of affording both parents equal protection
of the law.
REASONS FOR GRANTING THE PETITION
The negative impacts associated to removal of one parent from a child’s life
are undisputed, well-document and long understood, such that they need not be
repeated to this Court. And yet, despite this clear understanding this Nation has long
tolerated a system that is supposed to put the best interests of the children first behind
a system that has deteriorated into a system the deprives children of the opportunity
of being parented by both fit parents. This case presents and clean, clear and precise
opportunity for the Court to affirm the protections of our Constitution that ensure
that both parents of our children are provided equal protection of our laws and due
process of law before they are deprived of that long recognized fundamental liberty.
7

Without sounding too cliché, this case is about our children and this Court should
not resist or miss the opportunity to do what is right for the children of America.
After all this Court has plainly said that:

The generations that wrote and ratified the Bill of Rights and
the Fourteenth Amendment did not presume to know the extent
of freedom in all of its dimensions, and so they entrusted to
future generations a charter protecting the right of all persons to
enjoy liberty as we learn its meaning. When new insight reveals
discord between the Constitution's central protections and a
received legal stricture, a claim to liberty must be addressed.
Obergefell v. Hodges, 576 U.S. 644, 664 (2015). This Petitioner presents a claim to
liberty that this Court must address.
I.

THE APPLICATION OF FAVORABLE FACTORS ON THE
BASIS OF GENDER SERVED TO INCORRECTLY AVOID A
CRITICAL AND FUNDAMENTAL QUESTION REGARDING
DUE PROCESS ASSOCIATED TO PARENTING AND EQUAL
PROTECTION AFFORDED TO A FIT PARENT

In avoiding any constitutional analysis of whether or not it was permissible to
remove a fit father from the lives of his children, the Montana Supreme Court ratified
a deprivation of Petitioner’s rights to Due Process and Equal Protection. Moreover,
the Supreme Court’s failure to uphold Due Process and Equal Protection for
Petitioner as parent violates the clear precedent of this Court. Despite the fact that
this Court has recognized that “choices concerning contraception, family
relationships, procreation, and childrearing, all of which are protected by the
Constitution,” Obergefell v. Hodges, 576 U.S. 644, 666 (2015), the Montana
8

Supreme Court stripped away Petitioner’s decisions and input into the childrearing
of his children. They did so on the basis that mother:
has been the children’s primary caretaker and the coordinator of school,
activities, and medical/therapy appointments, and is adept at managing
their day-to-day care. Heidi has acted not only as the children’s
activities coordinator but also as their source of nurturance and
affection. She provides the children with predictability, support, and
was found by the District Court to be “more skilled and gifted in
providing nurturance and empathy.”
Pet. App. 6a. A clearer example of bias based upon gender factors is hard to fathom.
Thus, the Montana Supreme Court’s decision to uphold the District Court’s
discriminatory ruling without any evaluation of the constitutional protections
afforded to both parties squarely ignores this Court’s holding,
that we think it entirely plain that the Act of 1922 unreasonably
interferes with the liberty of parents and guardians to direct the
upbringing and education of children *535 under their control. As often
heretofore pointed out, rights guaranteed by the Constitution may not
be abridged by legislation which has no reasonable relation to some
purpose within the competency of the state.
Pierce v. Socy. of the Sisters of the Holy Names of Jesus and Mary, 268 U.S. 510,
534–35 (1925).
Moreover, as Justice Ginsburg has recently pointed out for the unanimous
decision of this Court that gender-based decisions or laws that impact the
fundamental right to be a parent to children are viewed by this Court
with suspicion laws that rely on “overbroad generalizations about the
different talents, capacities, or preferences of males and females.”
Virginia, 518 U.S., at 533, 116 S.Ct. 2264; see Wiesenfeld, 420 U.S., at
9

643, 648, 95 S.Ct. 1225. In particular, we have recognized that if a
“statutory objective is to exclude or ‘protect’ members of one gender”
in reliance on “fixed notions concerning [that gender's] roles and
abilities,” the “objective itself is illegitimate.” Mississippi Univ. for
Women, 458 U.S., at 725, 102 S.Ct. 3331.
Sessions v. Morales-Santana, 137 S. Ct. 1678, 1692 (2017). But that is exactly what
the Montana Supreme Court affirmed a decision that is directly contrary to this
Court’s holding to discriminate against a father on the basis of stereotypes of the
differing attributes that mothers and father’s bring to child rearing. Again, a more
illuminating and important distinction than what Justice Ginsburg authored in this
regard is hard to fathom and should never have been ignored by the Montana
Supreme Court:
Laws according or denying benefits in reliance on “[s]tereotypes
about women's domestic roles,” the Court has observed, may
“creat[e] a self-fulfilling cycle of discrimination that force[s]
women to continue to assume the role of primary family
caregiver.” Nevada Dept. of Human Resources v. Hibbs, 538
U.S. 721, 736, 123 S.Ct. 1972, 155 L.Ed.2d 953 (2003).
Correspondingly, such laws may disserve men who exercise
responsibility for raising their children. See ibid. In light of the
equal protection jurisprudence this Court has developed since
1971, see Virginia, 518 U.S., at 531–534, 116 S.Ct. 2264, §
1409(a) and (c)'s discrete duration-of-residence requirements for
unwed mothers and fathers who have accepted parental
responsibility is stunningly anachronistic.
Id at 1693. Thus, the gender based distinction upheld by the Montana Supreme Court
in this case must be determined to violate the equal protections of the Fourteenth
Amendment under this Court’s rationale in Morales-Santana and the Petition should
10

be granted so that this Court might evaluate the best way to ensure that the
fundamentally liberty of childrearing is equally available to all fit parents regardless
of their gender.
Finally, in clear recognition of this Court’s jurisprudence with regard to the
due process that should be afforded to the fundamental liberty of childrearing for a
parent this Court should grant the petition to address the deprivations of the
Petitioner’s due process as the Montana Supreme Court’s decision conflicts this
Court recent decision in Obergefell in this regard. “[T]he right to ‘marry, establish a
home and bring up children’ is a central part of the liberty protected by the Due
Process Clause.” Obergefell v. Hodges, 576 U.S. 644, 668 (2015) quoting Zablocki
v. Redhail, 434 U.S. 374, 384, 98 S.Ct. 673, 54 L.Ed.2d 618 (1978) (emphasis
added). Thus, allowing the states to strip away a long recognized fundamental liberty
that formed undisputed part of the basis for this Court’s decision in Obergefell upon
the basis that two fit parents have decided to divorce or end their relationship which
requires that what was previously a right equally afforded to both parents must now
be curtailed in order to satisfy a compelling state interest with evaluation or tailoring
of how such an interest is met is purely wrong. But a trampling of liberty is now the
norm for the family court systems in almost all states. The need for the granting of
this Petition to restore that liberty balance simply cannot be overstated.

11

CONCLUSION
The Court should grant the petition.

Respectfully submitted,

A. Blair Dunn, Esq.
Counsel of Record
WESTERN AGRICULTURE,
RESOURCE AND BUSINESS
ADVOCATES, LLP
400 Gold Ave, SW, Suite 1000
Albuquerque, NM 87102
(505) 750-3060
ABDunn@ABlairDunn-Esq.com

12

APPENDIX A

06/16/2020

DA 19-0276
Case Number: DA 19-0276

IN THE SUPREME COURT OF THE STATE OF MONTANA
2020 MT 158N

IN RE THE MARRIAGE OF:
HEIDI L. KERR,
Petitioner and Appellee,
and
THOMAS D. KERR,
Respondent and Appellant.

APPEAL FROM:

District Court of the Fourth Judicial District,
In and For the County of Missoula, Cause No. DR-17-886
Honorable Karen S. Townsend, Presiding Judge

COUNSEL OF RECORD:
For Appellant:
Thomas D. Kerr, Self-Represented, Missoula, Montana
For Appellee:
André Gurr, Garden City Law, PLLC, Missoula, Montana
Submitted on Briefs: March 4, 2020
Decided: June 16, 2020
Filed:

sr---6ma•—•f

__________________________________________
Clerk

Justice Laurie McKinnon delivered the Opinion of the Court.
¶1

Pursuant to Section I, Paragraph 3(c), Montana Supreme Court Internal Operating

Rules, this case is decided by memorandum opinion and shall not be cited and does not
serve as precedent. Its case title, cause number, and disposition shall be included in this
Court’s quarterly list of noncitable cases published in the Pacific Reporter and Montana
Reports.
¶2

Thomas Kerr (Tom) appeals from an order of the Fourth Judicial District Court,

Missoula County, regarding division of marital assets, child support, parenting plan,
spousal maintenance, and attorney fees. We affirm.
¶3

This case involves a highly contentious dissolution of marriage between Tom and

his wife of 16 years, Heidi Kerr (Heidi).

The couple have three minor children,

J.L.K. (13 years of age); W.D.K. (12 years of age); and C.T.K. (12 years of age). The
parties were married in Los Angeles County, California, in 2002, and continued to live
there until Tom moved to Missoula, Montana, in 2014 for work. Heidi and the children
followed to Missoula in June 2015. Tom is 55 years old and has an employment history
of working as an investment manager in California and later in Missoula at
S.G. Long Finance. Tom lost his job with S.G. Long Finance in October 2018, and was
still unemployed at the time of the District Court proceedings. He received a promise for
a satisfactory recommendation upon his leaving S.G. Long Finance and was given
$50,000 in severance pay. Heidi is 50 years old. She earned a Bachelor of Science in
Exercise Science in 1992, and a credential in Adapted Physical Education in 1999. Heidi
2

worked as a physical education teacher in California prior to the family decision that she
stay home when J.L.K. was born. She has since primarily worked as a stay-at-home
mother.

Heidi previously had a dog training business, Heidi Paws, while living in

California, and has also been a licensed massage therapist.

At the time of the

District Court proceedings Heidi was employed at the Humane Society, working 32 hours
per week at $12.25 per hour. Her California teaching credentials had lapsed at the time
of the proceedings.
¶4

The parties separated on December 7, 2017, although they continued to reside in

the family home until Heidi secured separate housing in May 2018.

Also on

December 7, 2017, Heidi filed a Petition for Dissolution of Marriage, to which Tom
responded. Initial proceedings were conducted before a Standing Master who issued an
Order for Temporary Child Support on February 22, 2018; the Standing Master
eventually issued a Revised Order upon Tom’s request for review. The matter was later
referred to the District Court on April 18, 2018. The District Court set a hearing on
Tom’s request to review the Standing Master’s orders but continued that hearing upon
request of the parties to pursue settlement.

After a settlement conference on

August 17, 2018, the parties did not entirely settle, but did reach a Stipulation on an
Interim Parenting Plan and on Child and Family Support. Following the report of the
Settlement Master, the District Court held a hearing on November 7 and 8, 2018, to
resolve the remaining issues in Tom’s review request, including ruling on the Order for
Family Support and the Order for Temporary Child Support, in addition to deciding on
3

the distribution of the parties’ marital assets. The parties stipulated that the testimony of
Dr. Sara Baxter, who had completed an earlier parenting evaluation, could be received
from Dr. Baxter’s deposition testimony as she was unavailable on the hearing dates.
¶5

Following the hearing, but before the District Court issued its findings and

conclusions, Heidi filed a motion for the sale of the family home on April 3, 2019. Tom
responded, agreeing to the sale but making several demands for deductions from the sale
proceeds to settle outstanding credit card debts before the remainder was divided between
the parties. The District Court held a hearing on Heidi’s motion on April 10, 2019. On
April 18, 2019, the court issued a single order on both the November 2018 and
April 2019 hearings.
¶6

The District Court made thorough findings and conclusions regarding the

dissolution, parenting plan, child support, spousal maintenance, and attorney fees. Based
in large part on Tom’s superior earning capacity, the “extreme” conflict between the
parties, and the extensive support group and financial opportunities available in
California, the District Court permitted Heidi to move back to California with the
children; adopted Heidi’s proposed parenting plan; awarded Heidi an equitable portion of
the marital estate; ordered Tom to pay $615 per child per month ($1,844 total per month)
in child support and $1,500 per month in maintenance to Heidi for 6 years; and ordered
Tom to pay Heidi’s attorney fees pursuant to § 40-4-110, MCA. Tom appeals, alleging
the District Court made numerous errors in its order, namely by allowing Heidi to move
to California with the children; erroneously calculating Tom’s historical earning capacity,
4

Heidi’s maintenance award, and the child support amount; and ordering Tom to pay
Heidi’s attorney fees. Both parties were represented by counsel in the District Court
proceedings, though Tom now represents himself in this appeal.
¶7

This Court reviews a district court’s findings of fact regarding parenting plans,

division of marital property, child support, and maintenance awards to determine whether
they are clearly erroneous. In re C.J., 2016 MT 93, ¶ 12, 383 Mont. 197, 369 P.3d 1028;
Paschen v. Paschen, 2015 MT 350, ¶ 17, 382 Mont. 34, 363 P.3d 444. A finding of fact
is clearly erroneous if it is not supported by substantial evidence, if the district court
misapprehended the effect of the evidence, or if our review of the record convinces us
that the district court made a mistake. In re C.J., ¶ 12.
¶8

We first address Tom’s argument that the District Court erred by permitting Heidi

to relocate to California with the children. A district court has “broad discretion when
considering the parenting of a child, and we must presume that the court carefully
considered the evidence and made the correct decision.”

In re C.J., ¶ 13

(quoting In re Marriage of Woerner, 2014 MT 134, ¶ 12, 375 Mont. 153, 325 P.3d 1244).
Accordingly, absent clearly erroneous findings, we will not disturb a district court’s
decision regarding parenting plans unless there is a clear abuse of discretion.
In re C.J., ¶ 13. Although district courts have broad discretion when considering the
parenting of a child, a district court must determine the parenting plan in accordance with
the best interests of the child, pursuant to § 40-4-212(1), MCA. In re C.J., ¶ 14. The
statute includes a non-exhaustive list of factors that district courts are directed to consider
5

in making a best interest determination. See § 40-4-212(1), MCA. Although district
courts are encouraged to make specific findings on each factor listed in
§ 40-4-212(1), MCA, “we require only ‘that the district court make findings sufficient for
this [C]ourt to determine whether the court considered the statutory facts and made its
ruling on the basis of the child’s best interests.’”

In re C.J., ¶ 14

(quoting Woerner, ¶ 15).
¶9

Upon review of the record, and the District Court’s findings relative to the best

interest factors in § 40-4-212(1), MCA, we hold that the District Court did not
misapprehend the effects of the evidence or clearly err in finding that it was in the
children’s best interests to move to California with Heidi. Tom raises several arguments
condemning the authenticity of Heidi’s California support group and the viability of the
employment opportunities available to Heidi in California, facts upon which the
District Court relied in making its determination. The District Court found that the
children would likely easily adjust to a move back to California, given their support
network of extended family and old friends, and their familiarity with the locale. Heidi
has been the children’s primary caretaker and the coordinator of school, activities, and
medical/therapy appointments, and is adept at managing their day-to-day care. Heidi has
acted not only as the children’s activities coordinator but also as their source of
nurturance and affection. She provides the children with predictability, support, and was
found by the District Court to be “more skilled and gifted in providing nurturance and
empathy.” Further, the court noted Dr. Baxter’s evaluation recognizing “Tom’s obvious
6

struggles with empathy.” The District Court’s findings were based on an analysis of the
factors presented in § 40-4-212(1), MCA, and the record supports those findings. Given
the District Court’s broad discretion in determining parenting plans, we will not disturb
the court’s decision absent a clear abuse of that discretion. Based on a review of the
record, the District Court did not err by adopting Heidi’s proposed parenting plan and
permitting Heidi to move with the children to California.
¶10

Tom next argues that the District Court erred in its determination of Tom’s

earning capacity, an error which Tom alleges was compounded because this
“unrealistic and unobtainable” earning capacity was then used to determine other
financial aspects of the case, including equitable division of the marital assets, spousal
maintenance, and child support.
¶11

The distribution of marital property in dissolution proceedings is governed by

§ 40-4-202, MCA, under which a trial court is vested with broad discretion to distribute
the marital property in a manner that is equitable to both parties. When dividing marital
property, the trial court must reach an equitable distribution, not necessarily an equal
distribution. A district court’s apportionment of the marital estate will stand unless there
has been a clear abuse of discretion as manifested by a substantially inequitable division
of the marital assets resulting in substantial injustice. Paschen, ¶ 16.
¶12

There is no evidence in the record that the District Court made an error in its

determination of Tom’s earning capacity. Despite Tom’s “evasive” and “not as direct”
responses to questions regarding his financial position and job prospects, Tom’s earning
7

capacity was calculated by using his past earning record and social security statements.
Following hearings, numerous exhibits, and extensive witness testimony, the
District Court equitably divided the marital estate, entering a 61-page order based upon
thorough findings which considered the criteria required in § 40-4-202, MCA, including:
the length of the marriage (16 years); the parties’ ages (55 and 50, respectively); the
parties’ high standard of living during the marriage; Heidi’s contributions as a
homemaker and primary caretaker of the children; Heidi’s income ($12.25 per hour); the
lapsing of Heidi’s teaching credentials; the parties’ “extreme” level of conflict; Tom’s
practice of maintaining a high standard of living through use of credit cards; the parties’
stipulated values of assets and debts; Tom’s severance package from S.G. Long Finance;
Tom’s financial support from family; Tom’s dissipation of retirement accounts; and
much more.
¶13

Given the thorough fact-finding engaged in by the District Court, and upon our

examination of the record, we find that the District Court did not err in its calculation of
Tom’s earning capacity, or in its calculation of an equitable division of the marital assets.
“As we have frequently stated, ‘It is not this Court’s function, on appeal, to reweigh
conflicting evidence or substitute our evaluation of the evidence for that of the
district court.’”

Paschen, ¶ 42 (quoting State v. Bieber, 2007 MT 262, ¶ 23,

339 Mont. 309, 170 P.3d 444). Where, as here, the District Court bases its findings on
substantial evidence, we will not disturb its ruling. The District Court did not err in

8

determining Tom’s earning capacity; nor did the court err in dividing the marital assets
based, in part, on the correctly calculated earning capacity of Tom.
¶14

As to the calculation of spousal maintenance and child support, we find no error

with the District Court’s findings, as those findings were supported by substantial
credible evidence. Section 40-4-203(2), MCA, requires the court to consider, among
other factors, the financial resources of the party seeking maintenance as well as the
“ability of the spouse from whom maintenance is sought” to meet his or her own needs
and the maintenance request of the other party. Paschen, ¶ 21. With respect to child
support, § 40-4-204(2), MCA, obligates the court to consider “all relevant factors,”
including the financial resources of the child and the parents, as well as the child’s
standard of living had the parents not gotten divorced. Paschen, ¶ 21. Upon review of
the facts in the record, there is ample evidence supporting the District Court’s findings
regarding spousal maintenance and child support. The District Court did not err in
making these determinations.
¶15

Finally, Tom argues that the District Court erred by awarding attorney fees to

Heidi. We disagree. “An award of attorney fees under § 40-4-110, MCA, is within the
sound discretion of the trial judge, and the trial judge’s determination regarding attorney
fees will not be disturbed absent an abuse of discretion.” Schmieding v. Schmieding,
2000 MT 237, ¶ 22, 301 Mont. 336, 9 P.3d 52. To determine whether an award of
attorney fees was appropriate pursuant to § 40-4-110, MCA, we consider whether the
award was: (1) based on necessity; (2) reasonable; and (3) based on competent evidence.
9

Schmieding, ¶ 25. First, Heidi clearly demonstrated her inability to pay her own attorney
fees, given her $12.25 per hour part-time job, and attorney fees totaling more than
$20,000. The District Court did not err in finding that this income amount was not
adequate to satisfy Heidi’s living expenses, must less her attorney fees. Tom’s own
representations at trial admitted his high earning capacity and concomitant ability to pay
Heidi’s attorney fees. Second, given the parties’ earning capacity, it was reasonable for
the court to conclude that Tom can absorb the cost of Heidi’s attorney fees. Lastly, the
award was based on competent evidence that Tom’s economic situation was much better
than Heidi’s, and that he should therefore be required to pay her attorney fees. As a
whole, the District Court’s findings adequately support its award of attorney fees.
Schmieding, ¶ 34. Tom failed to show that the District Court abused its discretion in this
regard.
¶16

We have determined to decide this case pursuant to Section I, Paragraph 3(c) of

our Internal Operating Rules, which provides for memorandum opinions. This appeal
presents no constitutional issues, no issues of first impression, and does not establish new
precedent or modify existing precedent.
¶17

Affirmed.
/S/ LAURIE McKINNON

We concur:
/S/ MIKE McGRATH
/S/ JAMES JEREMIAH SHEA
/S/ DIRK M. SANDEFUR
/S/ JIM RICE
10

APPENDIX B

